IN THE SUPREME COURT
OF THE UNITED STATES

STATE OF MINNESOTA )
) SS
COUNTY OF
)
I, Kristopher Lee Roybal, certify that I have served a true and
correct copy of a PETITION FOR A WRIT OF CERTIORARI inside a pre­
paid stamped envelope that was addressed to the following;
Keith Ellison, Minnesota Attorney General, 445 Minnesota Street,
suite 1800, Saint Paul, Minnesota, 55101; Benjamin Lindstrom,
Cass County Attorney, P.O. Box 3000, Walker, Minnesota, 56484,
WHEREAS, said envelope., was deposited in the prisons outgoing mail
,2020.
box on ^mv\6_____
I declare under penalty of perjury that everything I have stated
in this document is true and correct. Pursuant to Title 28 U.S.C.
§1746.
RESPECTFULLY SUBMITTED,

DATE:

'sit

6

